IN THN

buweme q,ourt of tbe Wnrte! btuteg
)
)
corporation
)
Petitioner.
)
)
v.'
)
)
PACIFICARE LIFE & HEALTH
)
INSURANCE CO., an Indiana corporation )
Respondent.'
)
)
)

MOLUTIONS, INC., a California

No
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the

Ninth Circuit

AF'FIDAVIT Otr'SERVICE
As required by Supreme Court Rule 29, I, Christopher Warren, of lawful age, being duly
sworn, upon my oath state that I did, on July 17,2020, serve the Petition for a Writ of Certiorari
in the above-captioned matter upon:
Jennifer S. Romano, Esq.

CROWELL & MORING, LLP
515 South Flower Street, 40th Floor
Los Angeles, California 9007 |
Telephone: (213) 622-4750
Facsimile: (213) 622-2690
Attorneys for Respondent, Pacificare Life &
Health Insurance Compa ny

Office of The United States Trustee
cio Solicitor General of the United States
Department of Justice
950 Pennsylvania Ave., N.W.
Room 5616
Washington, D.C. 20530-0001

Daniel M. Glassman, Esq.
Steven D. Allison, Esq.
CROWELL & MORING, LLP
3 Park Plaza,20th Floor
Irvine, California 92614
Telephone: (949) 263-8400
Facsimile: (949) 263-8414
Attorneys for Respondent, Pacificare Life &
He alth Insurance C ompany
by depositing three (3) copies of same, addressed to each individual respectively, and
enclosed in an envelope or package provided by FedEx, a third-party commercial carrier, for
delivery within three (3) calendar days. I placed the envelope or package for collection and
delivery at an office or a regularly utilized drop box of FedEx or delivered such document to a
courier or driver authorized by FedEx to receive documents.

4180929.1

All parties required to be served have been

served.

I declare under penalty of perjury under the laws of the United States of America that the

foregoing is true and correct. Executed on July 17,2020, at Los Angeles, California.
By:

WARREN
Blvd.,. 9th Floor
W.
Olympic
11400
Los Angeles, California 90064

2
4180929.1

A notary public or other officer completing this certificate verifies only the identity of the individual who signed the
document to which this certificate

County of Los Angeles

4180929.1

of that document.

to (or affirmed) before
Subscribed and
me on this
day of July,2020,by
Christopher Warren, proved to me on the basis
of satisfactory evidence to be the person who
appeafed before me.

State of California

Notary Public - Calilornia
Los Angeles County
Commission # 2173680

or

and not the

IS

Signature
0

Notary Public

